A Review of ATF's Operation Fast and Furious and Related Matters
A Review of ATF's Operation Fast and Furious and Related Matters
September 2012
Office of the Inspector General
OIG Testimony
September 20, 2012
Statement of Michael E. Horowitz, Inspector General, U.S. Department of Justice before the House Committee on Oversight and Government Reform concerning  “Report by the Office of the Inspector General on the Review of ATF's Operation Fast and Furious and Related Matters”
Special Reports
September 19, 2012
A Review of ATF's Operation Fast and Furious and Related Matters
Return to OIG Home Page